Credit Card Application
A table that includes required credit card disclosures is on a separate
document provided with this Application. To obtain any change in the
required information since it was printed, write to us at the address stated on
this Application.

Check below to indicate the type of credit for which you are applying. Married Applicants may apply for a separate account.
Individual Credit: You must complete the Applicant section about yourself and the Other section about your spouse if:
1. you live in or the property pledged as collateral is located in a community property state (AK, AZ, CA, ID, LA, NM, NV, TX, WA, WI);
2. your spouse will use the account, or
3. you are relying on your spouse's income as a basis for repayment. If you are relying on income from alimony, child support, or separate maintenance,
complete the Other section to the extent possible about the person on whose payments you are relying.
Joint Credit: Each Applicant must individually complete appropriate section below. If Co-Borrower is spouse of the applicant, mark the Co-Applicant
box.
Credit Limit Requested $
Guarantor: Complete the Other section if you are a guarantor on an account/loan.
APPLICANT

OTHER

NAME (Last - First - Initial)

NAME (Last - First - Initial)

CO-APPLICANT

SPOUSE

OTHER

ACCOUNT NUMBER

SOCIAL SECURITY NUMBER

ACCOUNT NUMBER

SOCIAL SECURITY NUMBER

DRIVER'S LICENSE NUMBER/STATE

EMAIL ADDRESS

DRIVER'S LICENSE NUMBER/STATE

EMAIL ADDRESS

BIRTH DATE

HOME PHONE

CELL PHONE

BUSINESS PHONE/EXT.

PRESENT ADDRESS (Street - City - State - Zip)

OWN

BIRTH DATE

HOME PHONE

CELL PHONE

BUSINESS PHONE/EXT.

PRESENT ADDRESS (Street - City - State - Zip)

RENT

OWN

LENGTH AT RESIDENCE

RENT

LENGTH AT RESIDENCE

MORTGAGE/RENT OWED TO:

MORTGAGE/RENT OWED TO:

MORTGAGE BALANCE

MONTHLY PAYMENT

$

$

INTEREST RATE

%

COMPLETE FOR JOINT CREDIT, SECURED CREDIT OR IF YOU LIVE IN A COMMUNITY PROPERTY
STATE:
MARRIED
SEPARATED
UNMARRIED (Single - Divorced - Widowed)
START DATE

EMPLOYMENT/INCOME

MORTGAGE BALANCE

MONTHLY PAYMENT

$

$

INTEREST RATE

%

COMPLETE FOR JOINT CREDIT, SECURED CREDIT OR IF YOU LIVE IN A COMMUNITY PROPERTY
STATE:
MARRIED
SEPARATED
UNMARRIED (Single - Divorced - Widowed)
START DATE

EMPLOYMENT/INCOME

NAME AND
ADDRESS OF
EMPLOYER

NAME AND
ADDRESS OF
EMPLOYER

NOTICE: ALIMONY, CHILD SUPPORT, OR SEPARATE MAINTENANCE INCOME NEED NOT BE
REVEALED IF YOU DO NOT CHOOSE TO HAVE IT CONSIDERED.

NOTICE: ALIMONY, CHILD SUPPORT, OR SEPARATE MAINTENANCE INCOME NEED NOT BE
REVEALED IF YOU DO NOT CHOOSE TO HAVE IT CONSIDERED.

EMPLOYMENT INCOME

EMPLOYMENT INCOME

OTHER INCOME

$_____________ Per _____________

$_____________ Per _______________

OTHER INCOME

$_____________ Per ______________ $_____________ Per ______________
NET

GROSS

NET

SOURCE

GROSS

SOURCE

OHIO RESIDENTS ONLY: The Ohio laws
STATE LAW NOTICES
against discrimination require that all creditors
make credit equally available to all creditworthy customers, and that credit
reporting agencies maintain separate credit histories on each individual
upon request. The Ohio Civil Rights Commission administers compliance
with this law.

unless the Credit Union is furnished a copy of the agreement, statement
or decree, or has actual knowledge of its terms, before the credit is
granted or the account is opened. (2) Please sign if you are not applying
for this account or loan with your spouse. The credit being applied for, if
granted, will be incurred in the interest of the marriage or family of the
undersigned.

WISCONSIN RESIDENTS ONLY: (1) No provision of any marital property
agreement, unilateral statement under Section 766.59, or court decree
under Section 766.70 will adversely affect the rights of the Credit Union

SIGNATURE FOR WISCONSIN RESIDENTS ONLY

X
DATE

SIGNATURES
2. You understand that the use of your card will constitute
1. You promise that everything you have stated in this application is
acknowledgment of receipt and agreement to the terms of the credit card
correct to the best of your knowledge. If there are any important changes
agreement and disclosures. You grant us a security interest in all
you will notify us in writing immediately. You authorize the Credit Union to
individual and joint share and/or deposit accounts you have with us now
obtain credit reports in connection with this application for credit and for
and in the future to secure your credit card account. When you are in
any update, increase, renewal, extension, or collection of the credit
default, you authorize us to apply the balance in these accounts to any
received. You understand that the Credit Union will rely on the information
amounts due. Shares and deposits in an Individual Retirement Account,
in this application and your credit report to make its decision. If you
and any other account that would lose special tax treatment under state
request, the Credit Union will tell you the name and address of any credit
or federal law if given as security, are not subject to the security interest
bureau from which it received a credit report on you. It is a crime to
you have given in your shares and deposits.
willfully and deliberately provide incomplete or incorrect information in this
application.

X

X

(SEAL)

APPLICANT'S SIGNATURE

DATE

(SEAL)

OTHER SIGNATURE

DATE

CREDIT UNION USE ONLY
APPROVED
DECLINED

NO. OF CARDS

CREDIT LIMIT $

CREDIT CARD NUMBER

CREDIT COMMITTEE OR LOAN OFFICER SIGNATURE

CUNA Mutual Group 2009 All Rights Reserved

AXC002-e

STANDARD MASTERCARD/GOLD MASTERCARD
F1
APPLICATION AND SOLICITATION DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Standard MasterCard

5.90%
F2

to 18.00%
F3

when you open your account, based

on your creditworthiness.
Gold MasterCard

5.90%
F4
APR for Cash Advances

to 18.00%
F5

when you open your account, based

on your creditworthiness.
Standard MasterCard

5.90%
18.00% when you open your account, based on your
F6
to F7
creditworthiness.
Gold MasterCard

Paying Interest
For Credit Card Tips from the Consumer
Financial Protection Bureau
Fees
Transaction Fees
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee
- Returned ACH Payment Fee

5.90%
18.00% when you open your account, based on your
F8
to F9
creditworthiness.
We will begin charging interest on purchases on the transaction date.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.

1.00%
F10

of each transaction in U.S. dollars

$25.00
Up to F11
$25.00
Up to F12
$25.00
Up to F13

How We Will Calculate Your Balance. We use a method called “average daily balance (including new purchases).”
Effective Date.
February 1, 2014.
The information about the costs of the card described in this application is accurate as of F14
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
OTHER DISCLOSURES
Late Payment Fee
Returned Payment Fee
Returned ACH Payment Fee
Card Replacement Fee
Rush Fee
Stop Payment Fee

©CUNA Mutual Group 2009, 10, 12 All Rights Reserved

$25.00 or the amount of the required minimum payment, whichever is
F15
less, if you are ten (10) or more days late in making a payment.
$25.00 or the amount of the required minimum payment, whichever is
F16
less.
$25.00 or the amount of the required minimum payment, whichever is
F17
less.
$5.00
F18
$27.50 2 days $55 Overnight
F19
$12.00
F20

D42NW1 (MXC402 CCM002)

